     UNACCOMPANIED ENLISTED PERSONNEL HOUSING
REQUIREMENTS FOR NAVAL STATION SAN DIEGO, CALIFORNIA



Report No. 98-080                         February 23, 1998




              Office of the Inspector General
                  Department of Defense
Additional Information and Copies
 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
 General, DOD Home Page at: WWW.DODIG.OSD.MIL.
 Suggestions for Audits
 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support Directorate
 at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
 can also be mailed to:
                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884
 Defense Hotline
 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
 or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
NAVFAC               Naval Facilities Engineering Command
NS                   Naval Station
VHA                  Variable Housing Allowance
                                                              February 23, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY
               (FINANCIAL MANAGEMENT AND
               COMPTROLLER)

SUBJECT: Audit Report on Unaccompanied Enlisted Personnel Housing
         Requirements for Naval Station San Diego, California
         (Report No. 98-080)


        We are providing this report for information and use. This report is one
in a series about DOD unaccompanied enlisted personnel housing requirements.

        Comments on a draft of this report conform to the requirements of DOD
Directive 7650.3 and left no resolved issues. Therefore, no additional
comments are required.

        We appreciate the courtesies extended to the audit staff. Questions on
the audit should be directed to Mr. Wayne K. Million, Audit Program
Director, at (703) 604-9312 (DSN 664-9312) or Mr. Gary R. Padgett, Audit
Project Manager, at (703) 604-9243 (DSN 664-9243). See Appendix E for the
report distribution. The audit team members are listed inside the back cover.




                                     David K. Steensma
                              Deputy Assistant Inspector General
                                        for Auditing
                              Office of the Inspector General, DOD
Report No. 98-080                                                    February 23, 1998
  (Project No. 6CG-0072.05)

                 Unaccom anied Enlisted Personnel Housin
             Requirements l?or Naval Station San Diego, Call+ornia

                                     Executive Summary

Introduction. This report is one in a series that discusses the process used to determine
requirements to support the construction of new unaccompanied enlisted personnel housing
(barracks). The Secretary of Defense has established a new standard design criterion for
future barracks construction. The Military Departments have estimated a cost of $15.4
billion to replace existing barracks over a 30-year period to meet new standards. In
FY 1997, Naval Station San Diego, California, reported a total requirement of 5,479
barracks spaces, including 3,118 barracks spaces under military control, 583 private housing
assets, and a deficit of 1,778 barracks spaces.

Audit Objectives. The overall audit objective was to determine the validity of requirements
estimated for DOD unaccompanied personnel housing. This report provides the results of the
audit of unaccompanied enlisted personnel housing requirements for Naval Station San
Diego, California. Audit objectives announced, but not included in this report, will be
addressed in a future summary report.

Audit Results. Naval Facilities Engineering Command underestimated Naval Station San
Diego’s requirement for permanent party enlisted barracks by 153 barracks spaces. As a
result, future construction costs for Naval Station San Diego have been understated by $23.7
million for their barracks replacement program. For details of the audit results, see Part I.

Summary of Recommendations. We recommend that the Commander, Naval Facilities
Engineering Command, recompute barracks requirements for unaccompanied permanent
party enlisted personnel reported for Naval Station San Diego, and consistently use the DOD
minimum standard of adequacy when counting and reporting the inventory of permanent
party barracks spaces for grades E-l to E-4. Also, calculate and report the inventories and
the deficits for unaccompanied permanent party enlisted barracks requirements separately
from transient barracks requirements so that the data is available for the two distinct
categories of barracks requirements.

Management Comments. The Assistant Secretary of the Navy (Installations and
Environment) concurred with the recommendation to recompute barracks requirement for
permanent party personnel and to consistently report the inventory of permanent party
barracks spaces. In addition, the Assistant Secretary concurred with the recommendation to
separate the barracks inventories for permanent party and transient personnel on the barracks
requirements reporting documentation. See Part I for a discussion of management comments
and Part III for the complete text of management comments.

Audit Response. The Assistant Secretary of the Navy (Installations and Environment)
comments are responsive to the recommendations and no additional comments are required.
Table of Contents

Executive Summary                                                         i

Part I - Audit Results
      Audit Background                                                   2
      Audit Objectives                                                   3
      Barracks Requirements for Unaccompanied Permanent Party Enlisted
      Personnel                                                          4

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                            20
        Methodology                                                      20
      Appendix B. Summary of Prior Coverage
      Appendix C. Background of the Barracks Replacement Program         ;;
      Appendix D. Final Determination of Bachelor Housing Requirements   26
      Appendix E. Report Distribution                                    27

Part III - Management Comments
      Department of the Navy Comments                                    30
Part I - Audit Results
Audit Background
    In November of 1995, the Secretary of Defense signed a memorandum for the
    Secretaries of the Military Departments for design and construction of
    unaccompanied enlisted personnel housing (barracks). The memorandum
    established a new standard design criterion for future permanent party barracks
    construction. The memorandum challenged each Military Department to
    implement the new standard as part of an integrated barracks plan that considers
    optimal use of existing adequate quarters and renovation of quarters that can be
    made adequate. The plan encouraged use of traditional military construction
    and innovative use of private sector solutions. The Military Departments have
    estimated a cost of $15.4 billion to replace existing barracks over a 30-year
    period using the new standard. The determination process identifies barracks
    space deficits that result in construction under the replacement program.
    Appendix C provides additional background information for the new barracks
    construction standard and the Military Departments’ barracks replacement
    programs.

    Policy Guidance. DOD Manual 4 165.63-M) “DOD Housing Management,            ”
    September 1993, establishes policy guidance, procedures, and responsibilities
    on all matters associated with barracks housing. The manual considers
    permanent party and transient personnel separately because they require
    different justifications. Permanent party personnel are assigned on permanent
    change of station orders, and students assigned to courses of 20 or more weeks.
    Barracks programming considers the housing requirements, both off-base and
    on-base, of all unaccompanied permanent party enlisted personnel assigned to
    the installation who are eligible for permanent assignment to barracks space.
    Excluded from programming are members assigned duty in CONUS, Alaska, or
    Hawaii, who would be programmable for family housing if they had not elected
    to be unaccompanied by dependents for reasons other than availability of
    housing at the permanent duty location. Projected deficits establish the baseline
    for new construction programming or other acquisitions. A deficit (or surplus)
    is determined by identifying and comparing projected requirements and assets.
    Military Departments use long-range personnel strength data from planning
    documents to support permanent party barracks construction. Support for
    transient personnel barracks is determined by averaging the daily number of
    temporary duty and other transient personnel eligible for temporary duty
    quarters on a confirmed reservation basis.

    Naval Facilities and Engineering Command (NAVFAC) Note 11101,
    “Implementation of FY 1999 Base Loading System, Family Housing
    Requirements System and Bachelor Housing Requirements Survey, ”
    January 1997, establishes the required actions for the bachelor housing
    survey. The guidance considers the bachelor housing survey to be the
    primary supporting document for justifying acquisition of new barracks or
    modernization of existing barracks. The survey consists of reviewing and
    validating the “Final Determination of Bachelor Housing Requirements, ”
    (R-19 report) and the “Bachelor Personnel Housing Assets, ” (R-21 report).
    These two reports are used to identify an organization’s current and projected
    personnel strengths and housing assets, and a surplus or deficit of bachelor
    housing. OPNAVINST 11103. lB, “Policies and Procedures Governing

                                        2
    Bachelor Quarters, ” March 1997, defines military members considered to be
    permanent party personnel and authorized to reside in permanent party barracks
    spaces. Married active-duty military members in grades E-l to E-4 are
    authorized to use permanent party barracks spaces if:
           l   their dependents reside outside a 50-mile radius of the installation,
        l they have a proven hardship as determined by the installation

    commander, or
           l they have a permanent party protected-status basis for the entirety of

    the tour at the installation.


Audit Objectives
     The overall audit objective was to determine the validity of requirement
     estimates for DOD unaccompanied personnel housing. A specific objective was
     to determine whether barracks requirements and cost estimates developed by the
     Military Departments were supported with appropriate documentation. We also
     announced an objective to review the management control program as it applies
     to the other stated objectives.
    This report provides the results of the audit of barracks requirements for
    unaccompanied permanent party enlisted personnel located at Naval Station
    (NS) San Diego, California. The management control program will be
    discussed in a future summary report. See Appendix A for a discussion of the
    audit process, and Appendix B for a summary of prior coverage related to the
    audit objectives.




                                           3
            Barracks Requirements for
            Unaccompanied Permanent Party
            Enlisted Personnel
            NAVFAC underestimated the NS San Diego requirement for
            unaccompanied permanent party enlisted barracks by 153 barracks
            spaces. The understatement occurred because the Navy did not
            accurately identify permanent party personnel and did not accurately
            report the inventory of unaccompanied permanent party barracks spaces
            that are used to compute unaccompanied permanent party barracks
            requirements. Permanent party personnel, unaccompanied single
            parents, rotational personnel, and unaccompanied military married to
            other military personnel are not reported accurately in the data used to
            compute permanent party barracks requirements. Voluntarily separated
            geographic bachelor family housing requirements are being improperly
            reported as unaccompanied permanent party enlisted barracks
            requirements. Also, the inventory of unaccompanied permanent party
            enlisted barracks spaces used to satisfy the unaccompanied permanent
            party enlisted personnel requirements for E-l to E-4 personnel was not
            reported accurately. As a result, future construction costs for NS San
            Diego have been understated by $23.7 million for their barracks
            replacement program.


Deficit Calculation
     DOD Manual 4165.63-M requires that barracks projects for new construction,
     repair, improvement, major renovation, and replacement of barracks be
     supported with data on requirements, assets, and deficits. NAVFAC Note
     11101 provides guidance for preparing the Navy Bachelor Housing Survey (the
     R-19 report). The R-19 report projects barracks requirements 5 years into the
     future, and is reviewed and verified annually. The R-19 report is the primary
     supporting document used for justifying acquisition of new barracks or
     modernization of existing barracks. If the R-19 report does not show a valid
     requirement, then barracks projects are at risk of being dropped from the
     acquisition program. The R-19 report provides an analysis of the total barracks
     requirement at a base by comparing the effective barracks requirement with
     existing barracks assets. NAVFAC prepares the R-19 report and forwards it to
     the cognizant Engineering Field Division who has responsibility for the
     reportable bachelor housing data. The cognizant Engineering Field Division
     and the organization for which the bachelor housing is reported annually will
     review, make appropriate changes, and verify data contained in the R-19 report.
     See Appendix D for the NS San Diego R-19 report that shows the data used to
     calculate barracks requirements.

     Effective Barracks Requirement. The effective barracks requirement reported
     on the R-19 report shows the projected total number of barracks spaces required
     by both unaccompanied permanent party personnel and transient personnel. The
     projected unaccompanied permanent party personnel data forecasts the number

                                        4
              Barracks Requirements for Permanent Party Enlisted Personnel


of unaccompanied personnel expected to be assigned to a base 5 years into the
future. Transient personnel data averages the number of daily transient
personnel located on the base and in local housing near the base, projected
personnel assigned to ships in overhaul, and projected personnel assigned to
homeported rotational units.
Permanent Party Barracks Requirement. The effective permanent party
barracks requirement is the number of unaccompanied permanent party
personnel assigned to a base who are entitled to barracks spaces. To calculate
the effective permanent party barracks requirement, the base first determines the
total number of permanent party personnel that require housing. That number is
then reduced by:
       l   the number of personnel that are family housing requirements,
       l the number of voluntarily and involuntarily separated geographic

bachelors, and
       l   the number of personnel deployed on a rotational basis.
      Permanent Party Personnel. Total permanent party personnel is the
number of personnel reported on the Base Loading System data for:
           host and tenant units,
           fleet air squadrons,
           mobile units,
           ships,
           two-crew submarines,
           permanent change of station students (20 weeks or more), and
           key civilian personnel.
       The Navy relies on the Base Loading System to determine its long-range
planning numbers. The Base Loading System data reports an installation’s
personnel strength data for the current year and 5 years into the future.
        Family Housing Requirement. Permanent party personnel receiving
basic allowance for quarters at the with-dependent rate are considered to be a
family housing requirement. This data is extracted from the annual family
housing survey.
        Geographic Bachelors. Geographic bachelors are married permanent
party personnel who are voluntarily separated from their families. This data is
extracted from responses received on the annual variable housing allowance
questionnaire.
        Adjustment for Deployment. The number of unaccompanied permanent
party personnel assigned to fleet air squadrons, mobile units, and two-crew
submarines, as well as the number of personnel below grade E-5 assigned to
large ships that are deployed for 90 days or more, are subtracted from total

                                     5
Barracks Reauirements for Permanent Partv Enlisted Personnel


      unaccompanied permanent party personnel. The percentage of personnel in
      fleet air squadrons, mobile units, and two-crew submarines requiring bachelor
      housing is added as a homeport rotational requirement.
      Transient Barracks Requirement. The transient barracks requirement is the
      number of transient barracks spaces required by transient personnel located on
      the base and in local housing near the base, the projected number of personnel
      assigned to ships in overhaul, and the number of personnel projected to be
      assigned to homeported rotational units.
              Transients. Transient personnel includes all temporary duty personnel,
      students projected to be in school for less than 20 weeks, rotational personnel at
      the receiving site, and reserve forces.
             Ships In Overhaul. Data for ships that are scheduled for overhaul and
      whose personnel require transient barracks space while the ship is in overhaul is
      obtained from the Naval Sea Systems Command. The data contains a schedule
      for each ship to be overhauled through the next 6 years. Final base loading data
      provides the latest projected personnel count for each ship projected to be in
      overhaul.
             Homeport Rotational. Homeport rotational personnel is a percentage
      of unaccompanied permanent party personnel reported for fleet air squadrons,
      mobile units, and two-crew submarines who are not deployed during the survey
      period. This category of personnel requires permanent party barracks spaces.
      Bachelor Housing Assets. A base commander has two sources of housing
      assets to satisfy barracks requirements: on-base barracks, and local housing
      near the base. Except in high-cost, remote and overseas locations, all personnel
      in grades E-5 and above are normally considered to be adequately housed. Data
      for existing on-base assets are obtained from the NAVFAC Assets Data Base
      which reflects each base’s barracks maximum capacity. Assets are reported by
      the facility condition and the number of personnel by grade that can be housed
      using the 1993 OSD minimum standards of adequacy for permanent party
      personnel. Permanent party personnel are entitled to one barracks space, the
      size of which is determined by grade. Table 1 shows the number and size of
      entitled barracks space by grade.

                            Table 1. Barracks Space by Grade

                       Grade                            Entitled Barracks Space
                     E-l to E-4                              90 sq. ft. space
                     E-5 to E-6                             135 sq. ft. space
                   E-7 and above                            270 sq. ft. space


      The number of local housing assets is obtained from data provided by the Navy
      Finance Center in Cleveland. The data identifies the average number of
      personnel receiving basic allowance for quarters and variable housing allowance
      at the without-dependent rate.



                                           6
                 Barracks Requirements for Permanent Party Enlisted Personnel


Requirements for Unaccompanied Permanent Party Enlisted
Personnel
    NS San Diego’s R-19 report, May 21, 1997, reported that 22,922 enlisted
    nersonnel are either assigned or homenorted at the base. The R-19 also reported
    an effective barracks reqiirement of 5:479 barracks spaces, representing 35 196
    barracks spaces for unaccompanied permanent party enlisted personnel and
    2,283 barracks spaces for transient personnel. Total bachelor housing assets
    reported was 3,701 spaces, representing 159 on-base adequate barracks spaces,
    2,959 substandard barracks spaces, and 583 private housing spaces. Future
    authorized military construction projects were not reported for NS San Diego.
    The total barracks deficit was 1,778 barracks spaces. The specific deficit for
    permanent party barracks spaces and transient barracks spaces could not be
    determined from the R-19 report because the inventory of barracks spaces was
    reported as a total amount. We separated the requirements for the permanent
    party spaces from the requirement for transient barracks spaces and found that
    this deficit represented 1,534 permanent party barracks spaces and 244 transient
    barracks spaces. Our review of the R-19 report showed that the total number of
    unaccompanied permanent party enlisted personnel requiring barracks space did
    not include all personnel who are entitled to barracks space. Also, improperly
    included were geographic bachelors who require family housing. In addition,
    the inventory of unaccompanied permanent party enlisted barracks was
    understated for personnel in grades E-l to E-4. Table 2 shows the net number
    of understated barracks spaces for unaccompanied permanent party enlisted
    personnel.


         Table 2. Understated Barracks Requirements for Unaccompanied
                       Permanent Party Enlisted Personnel
                                              Unaccompanied          Barracks
                   Description                  Personnel             Spaces
           Permanent Party Personnel                54                  54
           Unaccompanied Single Parents            166                 166
           Rotational Personnel                     30                   30
           Military Married to Military            176                 176
                Subtotal                           426                 426
           Less:
              Geographic Bachelors                  114                114
              Unreported Barracks Spaces            159                159
                 Total                              153                153


    Adequate and substandard barracks spaces for permanent party and transient
    personnel were not reported separately on the barracks inventory. The R-19
    report must separate permanent party barracks spaces and transient personnel
    spaces into categories, so that barracks requirements can be readily identified
    for permanent party and transient personnel.

                                         7
Barracks Requirements for Permanent Party Enlisted Personnel


         Permanent Party Data. The 3,196 personnel reported as unaccompanied
         permanent party enlisted personnel requiring barracks space did not include all
         permanent party enlisted personnel assigned to NS San Diego. Permanent party
         enlisted personnel data is obtained from the baseloading report which specifies
         the number of aircraft, ships, personnel, and equipment that is assigned to
         perform the tasks and services of an individual base. The baseloading report is
         the primary source of personnel information for facilities’ planning and the
         determination of family and bachelor housing requirements. Table 3 shows the
         number of enlisted permanent party personnel assigned at NS San Diego but not
         reported in permanent party data.

                     Table 3. Unreported Enlisted Permanent Party Data
                                                 Permanent Party
                           Grade                    Personnel
         \
                         E-l to E-4
                         E-5 to E-6                    1;;
                       E-7 and above                  8 2
                            Total                      230
     i

         We verified the R-19 report’s total permanent party personnel data with the
         baseloading report to ensure that permanent party personnel data were being
         reported correctly. We also contacted the local Personnel Support Detachment
         to obtain data regarding the number of personnel assigned to the station. As a
         result, we found that the 22,922 enlisted personnel reported as total permanent
         party did not include 230 personnel for 27 organizations located on the base.
         Failure to include the 230 personnel in total permanent party strength data
         understated the 3,196 unaccompanied permanent party enlisted personnel
         requiring barracks space by 54 personnel representing 54 barracks spaces.
         Table 4 shows the computation of unaccompanied permanent party enlisted
         personnel and barracks spaces for the unreported permanent party enlisted
         personnel.




                                             8
              Barracks Requirements for Permanent Party Enlisted Personnel



              Table 4. Calculation of Unreported Unaccompanied
            Permanent Party Enlisted Personnel and Barracks Spaces’
                                                         Barracks    Total
             Assigned         Married                   Spaces Per Barracks
   Grade    Personnel*       Personnel3    Difference     Person    Spaces
 E-l to E-4      26               18             8          1           8
 E-5 to E-6     122                             29          1          29
 E-7 to E-9      82               zz            17          1          17
    Total                                       54                        54
 ‘Barracks spaces for each grade is computed as follows: (number of personnel
 assigned) - (number of married personnel) = (number of unreported
 unaccompanied permanent party enlisted personnel) x (barracks spaces per
 person) = (total barracks spaces) by grade.

 *Projected baseloading data was not available for the 27 units. Actual
 personnel data was used for the computation.

 3Marital status obtained from actual personnel data.


NAVFAC annually provides NS San Diego the R-19 report to be updated. This
involves review and verification of total permanent party personnel data
reported on the R-19 report with current and projected baseloading personnel
data to ensure that all personnel supported by NS San Diego are accurately
identified. Proper planning for barracks space requires accurate identification
of the number and types of forces to be supported by the shore establishment.




                                    9
Barracks Requirements for Permanent Party Enlisted Personnel


      Unaccompanied Single Parents. The number of single parents without
      custody of a dependent child was not identified accurately in the R-19 report.
      Permanent party personnel who are single parents without legal custody of a
      dependent are considered unaccompanied permanent party personnel and are
      reported as permanent party barracks requirements. NAVFAC determines the
      number of single parents without custody of a dependent from responses
      received on the annual variable housing allowance (VHA) survey questionnaire.
      Table 5 shows the number of personnel responding to the VHA survey
      questionnaire as unaccompanied single parents within the San Diego housing
      complex.


                      Table 5. Unaccompanied Single Parents Data

                                                  Unaccompanied
                          Grade                   Single Parents
                        E-l to E-4                     133
                        E-5 to E-6                     279
                      E-7 and above                    116
                           Total                        528


      We evaluated the calculations used to determine permanent party barracks
      requirements reported on the R-19 report. The Navy reported only those
      service members responding to the VHA questionnaire as being a single parent
      without custody of a dependent child as permanent party barracks requirements.
      Failure to recognize the number of unaccompanied single parents who did not
      respond to the VHA questionnaire has understated the permanent party barracks
      requirements by 166 unaccompanied permanent party enlisted personnel.
      Table 6 shows the computation of nonresponsive unaccompanied single parents
      and barracks spaces.




                                         10
               Barracks Requirements for Permanent Party Enlisted Personnel



                       Table 6. Computation of Nonresponsive
                  Unaccompanied Single Parents and Barracks Spaces’
                    Unaccompanied Unaccompanied                         Barracks       Total
                    Single Parents Single Parents                      Spaces Per    Barracks
       Grade        Per NAVFAC’    Per IG DoD3          Difference       Person       Spaces
     E-l to E-4            50              168             118              1           118
     E-5 to E-6           105              137              32              1            32
     E-7 to E-9            44               60             16               1           16
       Total                                               166                          166
  ‘Barracks spaces for each grade are computed as follows: (number of unaccompanied single
  parents per NAVFAC) - (number of unaccompanied single parents per IG DOD) = (number
  of nonresponsive unaccompanied single parents) x (barracks spaces per person) = (total
  barracks spaces) by grade.
  *The actual number of unaccompanied single parents for the NS San Diego subcomplex could
  not be determined. NAVFAC calculated unaccompanied single parents by multiplying the
  528 single parents responding to the VHA questionnaire by a ratio of NS San Diego’s
  subcomplex enlisted family housing requirement to the total of San Diego’s complex enlisted
  family housing requirements.
  31G DOD calculated unaccompanied single parents by multiplying the 1,013 single parents at
  the NS San Diego subcomplex according to Bureau of Personnel data by a ratio by grade of
  accompanied to unaccompanied single parents for shore based personnel located at NS San
  Diego.


Single parents are also included as a category of personnel that require DOD
housing. However, the custodial status of a single parent’s dependent
determines if the individual is entitled to barracks housing or family housing.
Proper identification of unaccompanied single parents will eliminate
overestimating the number of unaccompanied permanent party personnel
requiring family housing and underestimating the number of unaccompanied
permanent party enlisted barracks spaces needed for unaccompanied single
enlisted parents.

Rotational Personnel. The Navy excluded those personnel assigned to
rotational units that are not deployed in the 3,196 personnel reported as
permanent party barracks requirements. NS San Diego houses Navy units that
deploy on a rotational cycle. These units normally deploy for at least 90 days.
The Navy has determined a fixed percent for each category of deployable units
that are always deployed. For example, 33 percent of fleet air squadrons are
always on deployment. The remaining 67 percent of fleet air squadrons are not
deployed and are considered unaccompanied permanent party barracks
requirements. However, these unaccompanied permanent party personnel are
reported on the R-19 report as transient barracks requirements. Table 7 shows
the number of enlisted personnel that were assigned to rotational units.




                                         11
Barracks Requirements for Permanent Party Enlisted Personnel



                          Table 7. Rotational Enlisted Personnel Data
                                                              Permanent Party
                           Grade                             Personnel Assipned’
                         E-l to E-4
                         E-5 to E-6                                      ;;
                       E-7 and above                                    122
                              Total                                     244
       ‘Total personnel assigned to mobile units.


      We evaluated the R-19 report to ensure that it accurately reported permanent
      party personnel located at the base. The Navy included 30 personnel transient
      barracks requirements when the unaccompanied permanent party enlisted
      personnel should have been reported as unaccompanied permanent party enlisted
      barracks requirements. Table 8 shows the calculation of unaccompanied
      permanent party enlisted personnel and barracks spaces for personnel assigned
      to rotational units.


                     Table 8. Calculation of Rotational Unaccompanied Psrmanent
                             Party Enlisted Personnel and Barracks Spaces

                                               Non           Unaccompanied     Barracks       Total
                    Assigned      Marital    Deployed          Personnel      Spaces Per    Barracks
         Grade      Personnel     Factor*    Percent3        Needing Spaces     Person       Spaces
       E-l to E-4        32         .678         .5                11              1            11
       E-6 to E-6        90         .238         .5                11              1            11
       E-7 to E-9       122         “132        .5                8                1           s
         Total                                                    30                           30

       ‘Barracks spaces for each grade are computed as follows: (number of personnel assigned) x
       (marital factor) x (percent of personnel not deployed) = (number of unaccompanied permanent
       party enlisted personnel not deployed) x (barracks spaces per person) = (total barracks spaces)
       by grade.

       “Marital factor is grade specific for NS San Diego.

       3Percent representing nonrotational personnel for mobile units.



      The R-19 report identifies personnel requiring barracks spaces as permanent
      party personnel or transient personnel. The number of personnel assigned to
      rotational units that are always located at NS San Diego should be included in
      the permanent party personnel section of the R-19 report. This will help to
      ensure that the number of unaccompanied permanent party enlisted personnel
      requiring barracks spaces is reported accurately.



                                                 12
            Barracks Requirements for Permanent Party Enlisted Personnel


Military Married To Military. NAVFAC did not include military married to
other military members who are unaccompanied, in the 3,196 unaccompanied
enlisted personnel reported as permanent party enlisted personnel requiring
barracks spaces. Military married to other military personnel who are assigned
to the same duty location are considered to be family housing requirements.
However, when the married military personnel are assigned to different duty
locations, each member unaccompanied by a dependent is entitled to a
permanent party barracks space. NAVFAC matches the last names of military
married to other military personnel that are reported on a base’s manpower data
provided by the Bureau of Naval Personnel. Those married military personnel
whose last names match are each considered to be a family housing
requirement. Therefore, the family housing requirements are reduced by one
unit for each set of matching last names. Generally, the remaining
unaccompanied military married to other military personnel are each counted as
a family housing requirement. Table 9 shows the total number of military
married to other military members that was identified for the NS San Diego
subcomplex.


            Table 9. Military Married to Military Personnel Data
                                            Military Married
                  Grade                   to Militarv Personnel
               E-l to E-4                          386
               E-5 to E-6                          314
               E-7 and above                       104
                 Total                             804


We verified the 3,196 unaccompanied permanent party enlisted personnel
reported on the R-19 report as requiring unaccompanied permanent party
enlisted barracks spaces to ensure that all unaccompanied permanent party
enlisted personnel entitled to barracks spaces were being reported correctly. As
a result, we determined that 176 unaccompanied military married to other
military personnel were not reported as requiring unaccompanied permanent
party enlisted barracks space. Table 10 shows the computation of personnel and
barracks spaces for the unaccompanied military married to other military
personnel.




                                   13
Barracks Requirements for Permanent Party Enlisted Personnel




                   Table 10. Computation of Unaccompanied Military Mprried to Other
                                Military Personnel and Barracks Spaces

                         Military Married Military Married                    Barracks       Total
                         to Military Per   to Military Per                   Spaces Per    Barracks
           Grade           NAVFAC*             IG DoD3         Difference      Person       Spaces
        E-l to E-4             386                267             119                       119
        E-5 to E-6             314                277              37            :           37
        E-7 to E-9             104                 84             20             1          20
           Total                                                  176                       176

       ‘Barracks spaces for each grade are computed as follows: (number of military married to other
       military personnel per NAVFAC) - (number of military married to other military personnel per
       IG DOD) = (number of unaccompanied military married to other military personnel) x
       (barracks spaces per person) = (total barracks spaces) by grade. Data for May 2 1, 1997 was
       unavailable. Therefore, current data was used in the computation.

       *he number of military married to other military personnel remaining after the last name
       match of personnel data.

       3iG DOD calculated the number of unaccompanied military married to other military personnel
       from actual current personnel data for NS San Diego.



      Unaccompanied military married to other military personnel require
      unaccompanied permanent party enlisted barracks spaces. Unaccompanied
      married military personnel should be categorized with other permanent party
      enlisted personnel so that unaccompanied permanent party enlisted barracks
      requirements can be accurately identified. Also, proper identification of
      unaccompanied permanent party enlisted barracks requirements will ensure that
      family housing requirements are not overstated.

      Geographic Bachelors. The 3,196 personnel reported as unaccompanied
      permanent party personnel requiring barracks space included geographic
      bachelors. A geographic bachelor is a permanent party person assigned to an
      organization in CONUS, Alaska, or Hawaii with permanent change of station
      orders which allow for the transfer of dependents; receives basic allowance for
      quarters at the “with dependent” rate; has applied for bachelor housing space;
      and whose dependents live outside the host command’s geographic area
      (generally outside a l-hour peak rush hour commuting distance).
      DOD 4165.63-M specifically excludes personnel for whom family housing is
      programmable from unaccompanied permanent party enlisted barracks
      requirements. Also excluded are personnel assigned duty in the CONUS,
      Alaska, or Hawaii, who would be programmable for family housing if they had
      not elected to be unaccompanied by dependents for reasons other than
      availability of housing at the permanent duty location. Table 11 shows the total
      number of voluntarily separated geographic bachelors identified by the VHA
      questionnaire responses for the NS San Diego housing complex.




                                                14
            Barracks Requirements for Permanent Party Enlisted Personnel



                     Table 11. Geographic Bachelor Data
                                           Geogra hit
                  Grade                     Bathe Por-s
                E-l to E-4                     114
                E-5 to E-6                     191
                E-7 and above                 6 4
                 Total                         369


We evaluated the R- 19 report to ensure that only unaccompanied permanent
party enlisted personnel were included in the unaccompanied permanent party
enlisted barracks requirements. NAVFAC included 114 bachelor personnel as
unaccompanied permanent party enlisted barracks requirements when the
personnel were voluntarily separated geographic bachelors. Specifically, the
114 voluntarily separated geographic bachelors in grades E-l to E-4 were not
removed from the effective family housing requirement used to calculate
unaccompanied permanent party enlisted personnel. The Navy removed
voluntarily separated geographic bachelors in grades E-5 to E-9 from the
calculation of unaccompanied permanent party enlisted personnel. Thus, the
unaccompanied permanent party enlisted barracks requirements for grades E-l
to E-4 were overstated by 114 barracks spaces.

Permanent Party Barracks Inventory. The Navy did not accurately report the
number of unaccompanied permanent party enlisted barracks spaces used to
satisfy the unaccompanied permanent party enlisted barracks requirements. We
evaluated the inventory of adequate and substandard barracks spaces reported on
the R-19 report for permanent party personnel. We determined that barracks
spaces for three of five barracks buildings were not reported accurately. The
Navy used the new construction standard in lieu of the minimum standard of
adequacy to count barracks spaces reported for those three barracks used to
house E-l to E-4 personnel. Table 12 shows the calculation of unreported
permanent party barracks spaces.




                                   15
Barracks Requirements for Permanent Party Enlisted Personnel



                    Table 12. Permanent Party Barracks Space Data’
                               Reportable         Reportable
             Building        Barracks Spaces    Barracks Spaces
             Number           Per IG DOD’       Per NAVFAC3          Difference
             3205A                 114                 57                57
             3205B                 114                 57                57
             3205C                  90                 45              45
                Total                                                  159
       ‘Barracks spaces are computed as follows: (number of barracks spaces per IG
       DOD) - (number of barracks spaces per NAVFAC) = (number of unreported
       barracks spaces) by building.

       2DoD minimum standard of adequacy of 90 sq. ft. used to count barracks
       spaces.

       3New construction minimum adequacy of standard 118 sq. ft. used to count
       barracks spaces.


      The R-19 report identifies the inventory of barracks spaces for permanent party
      personnel and transient personnel as a single entry. Like the calculation of
      permanent party personnel and transient personnel entitled to barracks space, the
      barracks inventory for these two distinct categories of personnel requiring
      barracks spaces needs to be reported separately. This would allow for accurate
      identification of the barracks requirements for each of the two categories of
      barracks.


Cost of Underestimate
      The Navy has underestimated its unfunded barracks replacement construction
      cost by $23.7 million by not accurately identifying personnel and barracks
      spaces used to satisfy unaccompanied permanent party enlisted barracks
      requirements. The estimated average cost to construct a barracks space at
      NS San Diego is $73,500 for grades E-l to E-4, and $147,000 for grade E-5
      and above. By adding a net of 153 barracks spaces to the unaccompanied
      permanent party enlisted barracks requirements, replacement cost needs can be
      changed.
             l Adding 54 unreported unaccompanied permanent party enlisted

      personnel increases barracks requirements cost by $7.4 million.

             l Adding 166 unaccompanied single parents increases barracks

      requirements cost by $15.7 million.



                                          16
                Barracks Requirements for Permanent Party Enlisted Personnel


           l Adding 30 rotational personnel increases barracks requirements cost

    by $3.6 million.

           l Adding 176 unaccompanied military married to other military

    personnel increases barracks requirements cost by $17.1 million.

           l Deleting 114 voluntarily separated geographic bachelors reduces

    barracks requirements cost by $8.4 million.

           l Adding 159 unreported barracks spaces to the permanent party

    barracks inventory reduces barracks requirements cost by $11.7 million.


Summary
    The Navy has underestimated the barracks requirements for unaccompanied
    permanent party enlisted personnel. The understatement occurred because the
    Navy did not accurately identify permanent party personnel, and did not
    accurately report the inventory of permanent party barracks spaces that is used
    to compute permanent party barracks requirements.

    Accurate identification of personnel and inventory of permanent party barracks
    spaces is an essential part of the barracks requirements determination process.
    The Navy’s barracks replacement program focuses on reducing the barracks
    deficit. The Navy’s deficit of 1,534 unaccompanied permanent party enlisted
    barracks spaces at NS San Diego needs to be increased to 1,687 barracks spaces
    by adding 153 barracks spaces.

    Proper identification of personnel requiring unaccompanied permanent party
    enlisted barracks space and inventory of permanent party barracks spaces is
    needed to ensure that future barracks construction projects are planned to meet
    accurately identified and authorized requirements.


Recommendations, Management Comments, and Audit
Response
    We recommend the Commander, Naval Facilities Engineering Command:

    1. Recompute barracks requirements for unaccompanied permanent party
    enlisted personnel reported on the R- 19 report for NS San Diego. Specifically,
    in computing the requirements:

           a. Identify all current and future base loading personnel data,

           b. Identify all unaccompanied single parents,




                                        17
Barracks Requirements for Permanent Party Enlisted Personnel


              c. Remove rotational personnel from the transient portion of the R-19
      report and place in the appropriate permanent party section,

              d. Recognize and count unaccompanied military married to other
      military personnel as permanent party barracks requirements,

             e. Remove voluntarily separated geographic bachelors in grades E-l to
      E-4 from unaccompanied permanent party enlisted barracks requirements, and

              f. Consistently use DOD minimum standard of adequacy when counting
      and reporting the inventory of permanent party barracks spaces for grades E-l
      to E-4.

      2. Report separately the barracks inventories for permanent party personnel and
      transient personnel on the R-19 report. Also, calculate and report the deficits
      for permanent party barracks requirements and transient barracks requirements
      so that the data is available for the two distinct categories of barracks
      requirements.

      Management Comments. The Assistant Secretary of the Navy (Installations
      and Environment) concurred with Recommendations 1. a. through 1 .e. and
      Recommendation 2. The Assistant Secretary partially concurred with
      Recommendation 1.f. and stated that the Navy will consistently count the
      inventory of permanent party barracks spaces using the new building standard of
      118 net square feet for E-l toE-4 barracks spaces when programming funding
      requirements needed to achieve the new standard.

      Audit Response. The Assistant Secretary of the Navy (Installations and
      Environment) comments are responsive. Although, the Navy partially
      concurred with Recommendation 1. f., the comments met the intent of the
      recommendation and no additional comments are required.




                                         18
Part II - Additional Information
Appendix A. Audit Process
Scope
    We reviewed the process and supporting documentation used to develop the
    unaccompanied personnel housing requirements for Naval Station San Diego.
    We limited the scope of the audit to personnel housing requirements for
    unaccompanied permanent party enlisted personnel. Also, the scope of the audit
    is limited in that we did not review the management control program. The
    management control program will be discussed in a separate summary report.


Methodology
    We performed the audit using DOD and Navy guidance for determining barracks
    requirements. We relied on computer-processed data when reviewing the Base
    Loading document, September 18, 1996, data for future manpower estimates
    used in the requirements determination process. The organization’s data was
    uniformly produced and verified by the organization. We reviewed adjustments
    made to that data and determined the data to be adequate and reliable.
    Audit Period, Dates, and Standards. This economy and efficiency audit was
    made from March through October 1997 in accordance with auditing standards
    issued by the Comptroller General of the United States as implemented by the
    Inspector General, DOD.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available on request.




                                       20
Appendix B. Summary of Prior Coverage
Inspector General, DOD
    Inspector General, DOD Report No. 97-142, “Unaccompanied Enlisted
    Personnel Housing Requirements for Marine Corps Base Camp Pendleton,
    California,” May 9, 1997, states that Marine Corps Base Camp Pendleton
    overestimated the number of unaccompanied permanent party enlisted personnel
    requiring barracks by 5,184 spaces. The overestimate occurred because
    guidance for barracks requirements did not specify removing ineligible Marines
    from personnel data used to compute barracks requirements. The report
    recommended that the Commandant of the Marine Corps revise guidance for
    computing barracks requirements to require that transient, deployed, and
    enlisted personnel in grades E-6 and above residing in the local community be
    excluded from personnel strength data used to determine permanent party
    barracks requirements. Also recommended was that the Commanding General,
    Marine Corps Base Camp Pendleton, remove transient personnel, deployed
    personnel on a rotational cycle, and personnel in grades E-6 and above residing
    in the local community from permanent party personnel data used in
    determining barracks requirements. The Marine Corps agreed with the
    recommendations to revise guidance for computing barracks requirements and to
    remove transient personnel, deployed personnel and E-6 personnel residing in
    the community from data used to determine permanent party barracks
    requirements.

    Inspector General, DOD Report No. 98-003, “Unaccompanied Enlisted
    Personnel Housing Requirements for Marine Corps Base Camp Lejeune, North
    Carolina, ” October 3, 1997, states that Marine Corps Base Camp Lejeune
    overestimated the number of unaccompanied permanent party enlisted personnel
    requiring barracks by 6,591 spaces. The overestimate occurred because
    guidance for barracks requirements did not specify removing ineligible Marines
    from personnel data used to compute barracks requirements. The report
    recommended that the Commandant of the Marine Corps revise guidance for
    computing barracks requirements to require that transient, deployed, and student
    personnel whose training is less than 20 weeks be excluded from personnel
    strength data used to determine permanent party barracks requirements. Also
    recommended was that the Commanding General, Marine Corps Base Camp
    Lejeune, remove transient personnel deployed personnel on a rotational cycle,
    and student personnel whose training is less than 20 weeks from permanent
    party personnel data used in determining barracks requirements. The Marine
    Corps agreed with the recommendations to revise guidance for computing
    barracks requirements and to remove transient personnel, deployed personnel
    and student personnel whose training is less than 20 weeks from data used to
    determine permanent party barracks requirements.




                                       21
Appendix B. Summary of Prior Coverage



Army Audit Agency
      U.S. Army Audit Agency Report No. AA 97-97, “Space Utilization, U.S.
      Army Infantry Center and Fort Benning, Fort Benning, Georgia” January 6,
      1997, found that new construction requirements for barracks to house
      permanent party soldiers were overstated. Fort Benning overstated barracks
      requirements for the Ranger regiment by 174 spaces at an estimated cost of $6.9
      million because it included single soldiers with dependents in the requirements
      determination process (computations). The report recommended that the
      command recalculate barracks requirements for permanent party soldiers,
      excluding single soldiers with dependents from the calculations and to obtain the
      projected strength figures from the most current Army Stationing and
      Installation Plan. Also, the command to reduce the requirement for
      construction of permanent party barracks in the installations master plan to
      accurately reflect the shortage of adequate barrack space, revise the FY 97
      barracks construction project for the Ranger regiment and delete the excess
      requirements is included in the project justification. The Command concurred
      with all the recommendations.

      U.S. Army Audit Agency Report No. AA 96-218, “Audit of Barracks
      Requirements, U.S. Army Signal Center and For Gordon, Fort Gordon,
      Georgia, ” June 14, 1996, found that barracks requirements for permanent party
      soldiers at Fort Gordon were significantly overstated. Fort Gordon overstated
      barracks requirements because it incorrectly computed the number of
      unaccompanied enlisted soldiers authorized barracks space. Specifically, single
      soldiers with dependents were counted as bachelors and included in the
      computation of barracks requirements. By overstating requirements, Fort
      Gordon incorrectly concluded that there was a shortage of adequate barracks
      space for its permanent party soldiers, and needed to build a 300-person
      barracks during FY 1998 at an estimated cost of $17.5 million. The report
      recommended that the command cancel construction of the 300-person barracks
      project. The Army nonconcurred with the recommendation and stated that a
      deficit still exists to support the 300-person barracks because of the new “ 1 + 1”
      construction standard. However, the Army agreed to reevaluate barracks
      requirements because of the new construction standard and have the results
      validated. Army Audit considered the comments to be responsive.




                                           22
Appendix C. Background for the Barracks
Replacement Program
New Design and Construction of Barracks Housing
    On November 6, 1995, Secretary of Defense Memorandum “Design and
    Construction of Unaccompanied Enlisted Personnel Housing (Barracks), ”
    established a maximum allowable area per occupant for new, permanent,
    barracks construction. The memorandum complies with United States Code,
    Title 10, Section 2856, to establish a new standard design criterion for future
    permanent party barracks construction. The standard for new construction does
    not apply to barracks constructed for transients, recruits, or members receiving
    entry-level skill training. The standard for new construction is optional for
    barracks outside CONUS funded by other than the United States or constrained
    by site conditions, and for barracks to house other than the full-time active-duty
    Service members.

    New barracks construction will be based on a module consisting of two
    individual living/sleeping rooms with closets, and a shared bath and service
    area. The standard for new construction is referred to as ” 1 + 1. ” Designs
    should be developed to produce 1 lm2 (118 square feet) of net living area per
    living/sleeping room, measured from the inside face of the walls to include all
    clear floor areas.

    The standard for new construction is to be implemented as soon as practical,
    taking into consideration that barracks projects are at various stages of design
    and construction. The standard for new construction may be waived by the
    Secretary of a Military Department under the following circumstances:

           l Wherever the Secretary determines that unique mission requirements

    or operational commitments are better served by congregated living (for
    example, Seal Teams, Force Reconnaissance Marines, and Special Forces).

           l Wherever the Secretary determines that the collective quality of life

    for members of a Military Department would be enhanced by a lesser
    construction standard, but providing new quarters to a larger number of
    members.

    Existing barracks will not be considered inadequate for assignment because of
    the new construction standard. The Secretary challenged each Military
    Department to implement the new standard as part of an integrated barracks
    plan that considers optimal use of existing adequate quarters, renovation of
    those that can be made adequate through traditional military construction, and
    innovative use of private sector solutions.




                                        23
Appendix C. Background for the Barracks Replacement Program


Implementation Plans
      Each of the Military Departments submitted to the Secretary of Defense a plan
      to implement the new construction standard Service wide. The plans contain
      each Military Department’s projected number of permanent party space
      requirements, existing permanent party barracks configuration, resources
      required and projected schedules for converting existing barracks to the new
      1 + 1 construction standard. The following figure shows the collective impact
      of these plans over a 20-year period. During that period, the number of spaces
      served by gang latrines would be reduced from 115,520 to 700. Spaces
      occupied by three or more persons would fall from 123,3 16 to 30,978.


                DOD Barracks Replacement Program

         Spaces
         500,000




                 n
                       F-Y95       FYOO      F-Y05     PYlO           FY 15
                                          S-Year Plans
                    Spaces/Gang Latrines EI 3 + Spaces Per Room
                 El 2 Spaces Per Room     EI 1 Space Per Room




                                        24
                 Appendix C. Background for the Barracks Replacement Program




Composite Barracks Configuration
    The table below provides data regarding the Military Departments’ estimated
    barracks requirements, funding required to convert existing barracks to the new
    construction standard, and the timelines for completing the conversions.


                      Military Department Barracks Implementation Plans

                       End            Total                  Resources Required
      Military        State        Permanent                   ($ In Millions)
     Department      Reached     Spaces Required     MILCON’   O&M2      Other3         m

     Army             2020           199,000           $6,480     $1,710    $1,295     $9,485
     Navy             2013           144,100             2,035       325       299      2,659
     Air Force        2019           115,710               799       320       481       1,600
     Marine Corps     2035            97,834             1,125     300         270       1,695
       Total                         556,644            10,439     2,655     2,345     15,439

     ‘MILCON - Military Construction
     *O&M - Operations and Maintenance
     3The Other category is anticipated foreign government investments (Payment-In-Program,
     Republic of Korea Program, and Japanese Facilities Improvement Program).




                                            25
Appendix D. Final Determination of Bachelor
Housing Requirements
                                                                                                                   21 MAY 97
                        FINAL DETERMINATION OF BACHELOR HOUSING REQUIREMENTS
                                    SUB-COMPLEX-13 OF COMPLEX-MF

FACSO RPT SYMINO 73OO/R9201R19-1                                                                                       PAGE        1

NAME AND LOCATION OF HOST ACTIVITY          FAMILY HOUSING COMPLEX MAJOR CLAIMANT                    UIC           EFD
NAVSTA SAN DIEGO CA                         NC SAN DIEGO. CA       PACFLT                            NO0245        SOWESTDV

 1    PROJECTED STRENGTH DATA AS OF N 2002

                                                                OFFICERS          A          ENLISTED
                                                     WI-02       03-010 TOT OFF SCHOOL El-E4   E5-E6  E7-E9 TOT ENL
                                                      (A)         (B)      0         (A)     (B)        ((3      CD)           W
 2    TOTAL PERMANENT PARTY (SUM OF LINES 3-10)        724        1.173    1,897            12,029     8,406     2,487     22,922
 3    HOST/TENANT                                       76          496      572             1,179     2,186     1,078      4,443
 4    FLEET AIR SQUADRONS
 5    MOBILE UNITS                                       6         134       140                32        90       122        244
 6    LARGE SHIPS                                      634         535     1.169            10,677     6,055     1,280     18,012
 7    SMALL SHIPS                                        8           8        16                31        59         6         96
 8    TWO-CREW SUBMARINES
 9    PCS STUDENTS (20 WEEKS OR MORE)                                                          110         16          1        127
10.   KEY CIVILIANS

11.   EFF FAMILY HSG REQ (LN 7 DD1378/LNll DD1523)     334         873     1,207            3,766      6,217     2,094   12,077
12.   GEOGRAPHICAL BACHELORS                             6          14        20                         191        64      255
13.   PERMANENT PARTY BACHELORS (2-l 1-12)             384         286       670            8,263      1,998       329   10,590
14.   PERCENTAGE OF BACHELOR PERSONNEL (LINE 13/2)      53.0        24.4      35.3             68.7       23.8      13.2     46.2

15.   ADJUSTMENTS (SUM OF LINES 16-20)                      3       33       36             7,357         21        16        7,394
16.   FLEET AIR SQUADRONS     (LINE4 X LINE    14)
17.   MOBILE UNITS            (LINE5 X LINE    14)          3       33       36                22         21        16           59
18.   LARGE SHIPS             (LINE 6 X LINE   14)                                          7,335                             7,335
19.   TWO-CREW SUBMARINES     (LINE 8 X LINE   14)
20.   OTHER

21. EFFECTIVE PERMANENT PARTY BH RQMT (LINE 13-15) 381             253      634               906      1,977      313         3,196
22. PROGRAMMING LIMIT (99% LINE 21)                343             228      571               815      1,779      282         2,876
     *      REMOTE LOCATIONS = 100%
23. TOTAL TRANSIENTS (SUM OF 24 - 26)                23            110      133        85    1,133       837      313         2,283
24. TRANSIENTS (AVG)                                 13             34       47        85      817       317      102         1,236
25. SHIPS IN OVERHAUL                                 8             59       67                305       509      203         1,017
26. HOMEPORTED ROTATIONAL                             2             17       19                 11        11        8            30
27.
28. TOTAL EFFECTIVE BH RQMT (SUM OF 21 + 23)       404             363      767        85   2,039      2,814      626         5,479
29. TOTAL PROGRAMMING LIMIT (SUM OF 22 + 23)        366            338      704        85   1,948      2,616      595         5,159
30. ADEQUATE BH ASSETS (SUM OF 31 + 36)             369            257      626             2,395        963      343         3,701
31. MILITARY CONTROL (SUM OF LINES 32-35)            60              4       64             2,395        579      144         3,118
32.    EXISTING ADEQUATE                                                                      159                                159
33.    FUNDED PRIOR YEARS (FY     -     )
34.    FY 98 PROGRAM TO CONGRESS
35.    SUBSTANDARD (MAY BE MADE ADEQUATE)            60              4       64             2,236        579       144        2,959
36. PRIVATE HOUSING                                 309            253      562                          384       199          583

37. TOTAL EFFECTIVE DEFICIT (LINE 28-30)                35         106      141        85     356.      1,851     283         1,778
38. TOTAL PROGRAMMING DEFICIT (LINE 29-30)               0          81        1        85       0       1,653     252         1,905

      IF A SURPLUS EXISTS WITHIN THE COL, COL = 0

      * LINE 22 REMOTE LOCATIONS: Al AK BA Dl EB FT FU LB1 1 LB12 MD1 I MFll MF26 MF27 OA 10 OAll PY RH      MF 13
                                                                                                      ENCLOSURE (1)




                                                            26
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Industrial Affairs and Installations)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Commander, Naval Facilities Engineering Command
Commanding Officer, Naval Station San Diego

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Central Imagery Office
Inspector General, Defense Intelligence Agency




                                          27
Appendix E. Report Distribution


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Subcommittee on Military Construction, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on Military Construction, Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           28
Part III - Management Comments
Department of the Navy Comments




   MEMORANDUM FOR TRE DEPUTY ASSISTANT INSPECTOR GRNRRAL FOR
                      AUDITING
   Subj: DRAFT AUDIT REPORT ON UNACCOMPANIED RNLJSTRD PERSONNEL
         REQUIREMENTS FOR NAVAL STATION SAN DIEGO, CA (PROJECT NO.
         603-0072.05)
   Ref:   (a) DoDIG memo dtd 23 Dee 97
       Reference (a) requested Department of the Navy comments on
   the draft DoDIG audit report regarding unaccompanied personnel
   housing requirements at Naval Station San Diego, CA. In general,
   the Department concurs with the audit recommendations. Detailed
   comments are attached.



                             Duncan Holaday
                       Deputy Assistant Secretary
                     (Installations and Facilities)
   Attachment:   DON Response to DoDIG Audit
   copy to:
   CNO (N44)
   COMNAVFAC (HSG)




                                    30
